No.______

In the

SUPREME COURT OF THE UNITED STATES
JORDAN SANDOVAL, Petitioner
v.
UNITED STATES OF NEW MEXICO, Respondent

On Petition for Writ of Certiorari to
the United States Court of Appeals for the Tenth Circuit
Certificate of Service
I, Aric Elsenheimer, hereby certify that on October 19, 2020, a copy
of the petitioner’s Motion for Leave to Proceed in Forma Pauperis and
Petition for Writ of Certiorari to the United States Court of Appeals for the
Tenth Circuit were mailed postage prepaid, to the Solicitor General of the
United States, Department of Justice, Room 5614, 950 Pennsylvania Avenue,
N.W., Washington, D.C. 20530-0001, counsel for the Respondent.

2

Respectfully submitted,
DATED: October 19, 2020

s/ Aric Elsenheimer
Aric Elsenheimer
Asst. Federal Public Defender
Attorney for the Petitioner
Counsel of Record
Office of the Federal Public
Defender, District of New Mexico
111 Lomas Blvd., NW, Suite 501
Albuquerque, N.M. 87102
Telephone: (505) 346-2489
Facsimile: (505) 346-2494
E-mail: Aric_Elsenheimer@fd.org

2

